Report No. D-2010-067                            June 10, 2010




           Public-Private Partnerships at Air Force
                     Maintenance Depots
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request future audits, contact the Office of the Deputy Inspector General
for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFB                           Air Force Base
AFMC                          Air Force Materiel Command
ALC                           Air Logistics Center
BCA                           Business Case Analysis
BIO                           Business Integration Office
CITE                          Center of Industrial and Technical Excellence
DCMA                          Defense Contract Management Agency
DPA                           Depot Partnering Assessments
GAO                           Government Accountability Office
PBL                           Performance Based Logistics
PPP                           Public-Private Partnership
                                INSPECTOR GENERAL 

                               DEPARTMENT OF DEFENSE 

                                  400 ARMY NAVY DRIVE 

                             ARLINGTON, VIRGINIA 22202-4704 

                                                                               JUN 10 2010


MEMORANDUM FOR COMMANDER, AIR FORCE MATERIEL COMMAND
               ASSISTANT SECRETARY OF THE AIR FORCE
                  (FINANCIAL MANAGEMENT AND COMPTROLLER).
              ASSISTANT SECRETARY OF THE AIR FORCE FOR
                 INSTALLATIONS, ENVIRONMENT AND LOGISTICS


SUBJECT: Public-Private Patinerships at Air Force Maintenance Depots
         (Report No. D-2010-067)

We are providing this report for your infolmation and use. We considered management
comments on a draft of this repmi when preparing the final report. The Deputy Chief of
Staff for Logistics, Installations and Mission Support, U.S. Air Force, responded for the
Air Force, and comments conformed to the requirements of DOD Directive 7650.3;
therefore, additional comments are not required. As a result of management comments,
we revised and redirected final repmi Recommendation 1.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8866 (DSN 664-8866).


                                          dtJ~~~
                                         Alice F. Carey
                                         Assistant Inspector General
                                         Readiness, Operations, and Suppmi
Report No. D-2010-067 (Project No. D2009-D000LD-0110.000)                   	      June 10, 2010


               Results in Brief: Public-Private Partnerships
               at Air Force Maintenance Depots

What We Did                                               What We Recommend
We evaluated the Air Force management of the              We recommend the Assistant Secretary of the
public-private partnership arrangements to                Air Force for Installations, Environment and
determine whether the depots have completed               Logistics ensure Air Force policy requires
business case analyses and established baselines          preparation of a business case analysis prior to
and metrics to measure partnership benefits.              approval of a public-private partnership and as
We reviewed 40 public-private partnership                 early in the acquisition cycle as possible; and
agreements, comprised of 61 implementation                ensure Air Force policy requires business case
agreements, at 3 Air Logistics Centers that               analyses to provide sufficient detail, including
reported $100.3 million of revenue during the             an analysis of costs/benefits and 50/50 and core
first 3 quarters of FY 2009.                              workload requirements, that demonstrates the
                                                          agreement is in the Government’s best interest.
What We Found
The Air Force did not adequately document its             For public-private partnerships, we recommend
public-private partnership decisions for                  that the Commander, Air Force Materiel
enhancing overall product support and the type            Command verify that the Air Logistics Centers
of partnership arrangement selected; and did not          or weapon system program managers have
adequately monitor the partnerships once they             completed a business case analysis; verify that
were established. Specifically:                           baselines and metrics have been established;
                                                          require Air Logistics Centers to report revenues
•	 35 of the 40 partnerships and 49 of 61
                                                          and expenses and monitor performance to
   implementation agreements reviewed were
                                                          ensure the recovery of workload expenses; and
   not supported by business case analyses;
                                                          verify that the private industry partner pay the
•	 51 of 61 implementation agreements
                                                          Warner Robins Air Logistics Center the
   reviewed had not established baselines, and
                                                          $3.1 million owed in C-17 unfunded workload
   40 of 61 had not established metrics; and
                                                          expenses for FY 2007 through May 2009.
•	 Air Force Materiel Command did not
   adequately monitor revenues and expenses
   on partnership work performed, and the
                                                          Management Comments and
   private industry partner owes $3.1 million to          Our Response
   Warner Robins Air Logistics Center.                    The Air Force Deputy Chief of Staff for
As a result, there is not sufficient assurance that       Logistics, Installations and Mission Support
the Air Force’s use of partnerships is obtaining          agreed to update guidance to require that
best value for its maintenance support decisions          Business Case Analyses show how the
and recovering all its expenses. This situation           Partnerships contributes to the achievement of
stemmed from prior conflicting Air Force                  objectives; aggressively work toward ensuring
guidance, insufficient Air Force Materiel                 business cases are prepared; baselines and
Command oversight, and partnership decisions              metrics are established; and recover the
made above the Air Logistics Center level for             $3.1 million in expenses. The Air Force’s
bringing depot maintenance workload back to               comments are responsive. Please see the
the depots to satisfy public laws on core                 Recommendations Table on the back of this
capability and 50/50 compliance.                          page.
                                                      i
Report No. D-2010-067 (Project No. D2009-D000LD-0110.000)                   June 10, 2010

Recommendations Table
Management                       Recommendations            No Additional Comments
                                 Requiring Comment          Required
Assistant Secretary of the Air                              1.a and 1.b
Force for Installations,
Environment and Logistics
Commander, Air Force Materiel                               2.a, 2.b, 2.c, and 2.d
Command




                                          ii
Table of Contents

Introduction                                                   1


      Objectives                                               1

      Background                                               1

      Public-Private Partnerships                              2

      Air Force Materiel Command                               3

      Review of Internal Controls                              3



Finding. Implementation of Public-Private Partnerships         4


      Management Comments on the Finding and Our Response      13 

      Recommendations, Management Comments, and Our Response   13 


Appendix

      Scope and Methodology                                    16 

             Prior Coverage                                    16 


Management Comments

      Deputy Chief of Staff for Logistics, Installations and   18 

            Mission Support, U.S. Air Force

Introduction
Objectives
We evaluated the management of the public-private partnership (PPP) arrangements
entered into by Air Force depots. Specifically, we determined whether the Air Force
depots have established baselines and metrics to measure PPP benefits. See the Appendix
for a discussion of scope and methodology and prior audit coverage.

We performed this audit pursuant to Public Law 110-417, “The National Defense
Authorization Act for Fiscal Year 2009,” section 852, “Comprehensive Audit of Spare
Parts Purchases and Depot Overhaul and Maintenance of Equipment for Operations in
Iraq and Afghanistan.” Section 852 requires “thorough audits to identify potential waste,
fraud, and abuse in the performance of Department of Defense contracts, subcontracts,
and task and delivery orders for (A) depot overhaul and maintenance of equipment for the
military in Iraq and Afghanistan; and (B) spare parts for military equipment used in Iraq
and Afghanistan.”

Background
Depot-level maintenance is the process of materiel maintenance or repair involving the
overhaul, upgrading, rebuilding, testing, inspection, and reclamation (as necessary) of
weapon systems, equipment end items, parts, components, assemblies, and
subassemblies. Depot-level maintenance also includes all aspects of software
maintenance; the installation of parts or components for modifications; and technical
assistance to intermediate maintenance organizations, operational units, and other
activities. Under a PPP, a depot-level maintenance activity is a specific DOD-owned and
DOD-operated facility established, equipped, and staffed to carry out depot-level
maintenance.

Under 10 U.S.C. §2474, each depot-level activity of the Military Departments and
Defense agencies shall be designated as a Center of Industrial and Technical
Excellence (CITE) for designated core competencies. CITEs shall serve as recognized
leaders in their core competencies throughout the DOD and in the national technology
and industrial base. CITEs are encouraged to use PPPs to maximize the utilization of
capacity, reduce or eliminate cost of ownership, reduce cost of products, leverage private
sector investment in plant and equipment recapitalization and promotion of commercial
business ventures, and foster cooperation between the Armed Forces and private industry.

Each DOD-owned and DOD-operated principal depot-level maintenance activity has
been designated as a CITE for a specified set of technical competencies required to
successfully fulfill assigned core capabilities. In FY 2008, the Air Force expended
$10.3 billion on the performance of depot-level maintenance workload, of which
47.6 percent was performed by non-Government personnel. DOD Instruction 4151.21,
“Public-Private Partnerships for Depot-Level Maintenance,” April 25, 2007, authorizes
and encourages each CITE to enter into PPPs comprising its own employees, private


                                            1

industry, and/or other entities outside the DOD to perform work within its depot-level
maintenance core competencies, and/or allow private industry to lease or otherwise use
underutilized or unutilized facilities and equipment at the CITE. The Air Force has three
CITEs: Ogden Air Logistics Center (ALC), Hill Air Force Base (AFB), Utah; Oklahoma
City ALC, Tinker AFB, Oklahoma; and Warner Robins ALC, Robins AFB, Georgia.

Public-Private Partnerships
PPPs for depot-level maintenance are cooperative arrangements between a depot-level
maintenance activity and one or more private sector entities to perform DOD or defense-
related work, utilize DOD depot facilities and equipment, or both. Other Government
organizations, such as program offices, inventory control points, and
materiel/systems/logistics commands, may also be parties to such agreements.

A depot maintenance activity’s workload shapes how the services develop the approach
used for each of their PPPs, including the selection of a PPP type and the division of
responsibilities for the performance of logistics functions. Air Force PPPs can be formed
through the following types of arrangements.

   •	 Workshare: A partnership in which the buying activity determines the best mix of
      work capitalizing on each partner’s capabilities. The workload is then shared
      between the contractor and the organic repair entity. The contractor is funded through
      a contract, and the organic depot is funded through a project order. The partnering
      arrangement between the contractor and organic repair entity focuses on the roles and
      responsibilities of each partner. Both work jointly to accomplish the overall
      requirement.

   •	 Direct sale: An arrangement whereby military and commercial entities enter into
      a contractual relationship for the use of military depot maintenance facilities and
      employees to provide the private sector with articles, services, or both. In a direct
      sale arrangement dollars flow from the Government buying activity directly to the
      contractor. In turn, the contractor funds the depot by transferring funds to the
      U.S. Treasury for the goods and services supplied by the depot. Those funds
      received for work performed in support of a PPP are credited to the depot's
      working capital fund rather than deposited into a general U.S. fund account. The
      contractor may also supply materiel to the depots in support of the PPP.

   •	 Lease: An arrangement that allows private industry access to facilities or equipment
      located at a CITE. Facilities or equipment located at a CITE may be made available
      to private industry to perform maintenance or produce goods, as long as the
      arrangement does not preclude the CITE from performing its mission. The goal is to
      make those Government-owned facilities more efficient and ensure that a workforce
      with the necessary manufacturing and maintenance skills is available to meet the
      needs of the Armed Forces.




                                             2

Air Force PPPs typically consist of three types of documents:

   •	 A strategic partnering agreement, which is not mandatory, is a broad, overarching
      agreement that describes the weapon system, sets the partnership parameters, and
      provides organizational commitments necessary to establish specific PPP
      relationships.

   •	 A partnership agreement establishes the organizational interactions, assumptions,
      and processes the stakeholders will follow during the partnership. The
      partnership agreement is coordinated through all stakeholders and signed by the
      principals involved with the business efforts, typically the ALC Commander (or
      designee) as the government signatory and an equivalent level of authority
      representing the industry partner.

   •	 An implementation agreement describes the efforts to be completed as envisioned
      by the approved partnership agreement. The implementation agreement also
      describes the specific deliverable line items and associated documents and
      processes to be used in executing the requirements.

Air Force Materiel Command
Air Force Materiel Command (AFMC) conducts research, development, test and
evaluation and provides acquisition management services and logistics support necessary
to keep Air Force weapon systems ready for war. AFMC delivers expeditionary
capabilities to the warfighter through development and transition of technology,
professional acquisition management, exacting test and evaluation, and world-class
sustainment of all Air Force weapon systems. AFMC utilizes three unique ALCs for
“cradle-to-grave” oversight of aircraft, electronic systems, missiles and munitions; these
are also the Air Force-designated CITEs. These centers provide logistics, support,
maintenance, distribution, and engineering management for Air Force weapon systems.

Review of Internal Controls
We found internal control weaknesses in Air Force PPPs as defined by
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006. The Air Force did not have adequate controls in place to ensure baselines
and metrics were established and Business Case Analyses (BCAs) were completed for PPPs
reviewed. However, AFMC had implemented procedures to address controls for the PPP
process. Implementing Recommendations 1 and 2 will improve the controls over the PPP
process. We will provide a copy of the report to the senior official responsible for
internal controls in the Department of the Air Force.




                                            3

Finding. Implementation of Public-Private
Partnerships
The Air Force did not adequately document its PPP decisions for enhancing overall
product support and the type of partnership arrangement selected; and did not adequately
monitor the PPPs once they were established. Specifically, at the ALCs:

•	 35 of the 40 PPPs and 49 of 61 implementation agreements reviewed were not
   supported by BCAs;
•	 51 of 61 implementation agreements reviewed had not established baselines, and 40
   of 61 had not established metrics; and
•	 AFMC did not monitor revenues and expenses on work performed on PPPs, and the
   private industry partner owes $3.1 million to Warner Robins ALC.

This situation stemmed from prior conflicting Air Force guidance, insufficient AFMC
oversight, and PPP decisions made above the ALC level for bringing depot maintenance
workload back to the depots to satisfy public laws on core capability and 50/50
compliance. Also, the ALCs have not sufficiently reported their PPP revenues and
expenses in their quarterly metric submittals. As a result, there is no assurance that the
Air Force’s use of PPPs is obtaining best value for its maintenance support decisions.

Department of Defense Guidance
DOD Instruction 4151.21, April 25, 2007, “Public-Private Partnerships for Depot-Level
Maintenance,” implements policy, assigns responsibilities, and prescribes procedures for
depot-level maintenance PPPs under 10 U.S.C. §2474. “PPPs for depot-level
maintenance shall be employed whenever cost-effective in providing improved support to
the warfighter, and to maximize the utilization of the Government’s facilities, equipment,
and personnel at DOD depot-level maintenance activities.” Strategies for performance-
based logistics implementation shall consider using PPPs to satisfy the core capabilities
requirements of 10 U.S.C § 2464 and the limitations on the performance of depot-level
maintenance and materiel requirements contained in 10 U.S.C. § 2466. Depot-level
maintenance PPPs shall be formed around a depot-level maintenance activity’s identified
core competencies. Such PPPs should contribute to the implementation of best business
practices and to the improvement of operations while sustaining core depot-level
maintenance and repair competencies. The decision to enter into a PPP must be
supported by a BCA considering costs, benefits, and best use of public and private sector
capabilities that demonstrate that it is in the Government’s best interest.

Air Force Guidance
AFMC issued “AFMC Public-Private Partnership (PPP) Guidance for Depot
Maintenance,” January 16, 2009, to replace prior AFMC guidance that had expired in
March 2007. The new AFMC guidance is interim guidance, valid until both Air Force
Instruction 63-101 (released April 17, 2009) and the AFMC Supplement to that
Instruction (not yet issued) are released. The guidance provides policy for existing, draft,
and future PPP agreements. It also establishes the requirements for each PPP, including


                                             4

the partnership agreement, the implementation agreement, and a BCA * for each
implementation agreement to be completed by the appropriate party. The BCA
establishes the baseline of the expected objectives and benefits resulting from the
agreement and should help generate metrics for assessing whether the PPP remains the
best value solution for the Air Force. The guidance requires the use of BCAs even if the
PPP has been directed by leadership, as they provide the foundation for evaluation of the
negotiated PPP’s value. Throughout the life of the agreement, PPPs are required to have
metrics assessed to track whether they are meeting planned objectives. Guidance also
requires the Government partner to report these metrics to AFMC quarterly so each
active PPP can track all progress made in obtaining the expected benefits identified in the
BCAs. These metrics should include triggers and decision alternatives to assist partners
with optimizing PPP outcomes.

As stated previously, the Air Force updated and replaced Air Force Instruction 63-107
with Air Force Instruction 63-101, “Acquisition and Sustainment Life Cycle
Management,” on April 17, 2009. The new Instruction establishes guidelines, policies,
and procedures for Integrated Life Cycle Management for systems, subsystems, end-
items, and services procured under DOD Instruction 5000.02, “Operation of the Defense
Acquisition System.” This Air Force Instruction includes a section on PPPs that updates
the old Instruction by establishing the buying authority—for example, the program
manager—as a partner in PPPs for depot maintenance, in addition to the depot and
private industry partner. Further, the new Instruction requires program managers to
consider using PPPs and to include PPPs for the engineering and manufacturing
development phase in the acquisition of new weapon systems in the Request for Proposal.
Program managers must also proactively consider using organic depots in the PPP
strategy for fielded weapon systems that are changing their depot maintenance strategies.
These updates should help ensure that the program offices are actively involved with the
depots with regard to PPPs.

Public Law Effects on Public-Private Partnerships
Core Logistics Capabilities
Core logistics capabilities are the logistics-related depot-level maintenance capabilities
that serve as the DOD’s necessary, ready, and controlled source of technical ability,
expertise, and resources as required by title 10 U.S.C. § 2464. Core competencies are the
set of depot-level maintenance capabilities necessary to enable the Armed Forces to
fulfill the strategic and contingency plans prepared by the Joint Chiefs of Staff, and for
which the Military Departments believe the DOD should be a recognized leader in the


*
 AFI 65-509 “Business Case Analysis,” September 19, 2008, defines a business case analysis as a decision
support document that identifies alternatives and presents business, economic, risk, and technical
arguments for selecting an alternative to achieve organizational or functional missions or goals. BCAs do
not replace the judgment of the decision maker, but rather aid that judgment by considering possible
alternatives, their costs, benefits, and risks, and the degree to which they meet program objectives, or are
either within budget constraints or require additional funding. A BCA can vary in size and scope depending
on the requirements of the decision maker or reviewing organization.


                                                     5

national technology and industrial base. Core competencies ensure that DOD depot-level
maintenance activities are prepared to, and actually do, execute depot-level maintenance
in an effective, efficient, and timely manner. To ensure core capability is maintained,
Congress enacted 10 U.S.C. § 2464, which requires, in part, that DOD maintain a core
logistics capability that is Government owned and Government operated, and that uses
Government personnel, equipment, and facilities. This capability provides a ready and
controlled source of technical competence and resources for ensuring effective and timely
response to mobilization, national defense contingency situations, and other emergency
requirements. Statutory guidance and DOD’s implementation guidance help ensure that
repair capabilities will be available to meet the Nation’s military needs in an emergency
situation.

Limitations on the Performance of Depot-Level Maintenance of
Materiel
Under 10 U.S.C. § 2466(a), no more than 50 percent of funds made available in a fiscal
year to a Military Department or Defense agency for depot-level maintenance and repair
may be used to contract for the performance by non-Federal Government personnel of
such workload for the Military Departments or the Defense agency. Further,
10 U.S.C. § 2466 requires the Secretary of Defense to submit to Congress a report on the
performance of depot-level maintenance and repair by the public and private sectors, and
identifying for each of the Armed Services the percentage of funds expended during the
preceding fiscal year and projected for the current and ensuing fiscal years.

On May 1, 2009, DOD reported to Congress that of the Air Force funds made available
for depot-level maintenance, the Air Force is expected to spend 48.7 percent of its funds
during FY 2009 and 49 percent during FY 2010 for performance of depot-level
maintenance and repair by non-Government personnel. The report also stated that the Air
Force projections indicate that the Air Force, to remain compliant, will be required to
manage the distribution of depot-level maintenance and repair workloads.

Public-Private Partnerships Reviewed
We reviewed documentation for 40 PPPs, comprised of 61 implementation agreements,
at the three ALCs. (A single PPP can have multiple implementation agreements.) When
reviewing documentation, we looked for partnering agreements, implementation
agreements, business case analyses, baselines, and metrics.




                                           6

      Public-Private Partnerships and Implementation Agreements Reviewed
   Air Logistics        Partnership       Implementation        Year To Date Revenue
      Center            Agreements          Agreements             Reported as of
                                                                    30 June 2009
                                                                     (in millions)
 Warner Robins               15                   27                     $63.2
 Oklahoma City               10                    9                     $13.6
 Ogden                       15                   25                     $23.5
      Total                  40                   61                    $100.3

Of the 40 PPPs, 28 were direct sales agreements, 9 were workshare agreements, and 3
were lease agreements. The PPPs reported revenues ranging from $15,000 to
$50.6 million during the first three quarters of FY 2009. The C-17 ($50.7 million) and
F-22 ($8.4 million) PPPs were two of the largest revenue-generating PPPs. Both of these
weapon systems use a Performance Based Logistics (PBL) support strategy, with the
C-17 private industry partner retaining total system support responsibility. PBL is a
strategy for weapon system life cycle sustainment that links product support to weapon
system performance and is the DOD’s preferred approach for implementing product
support.

Completion of Business Case Analyses
Of the 40 PPPs reviewed at the ALCs, 35 were not supported by a BCA to determine the
best value support alternative. Also, of the 61 implementation agreements we reviewed,
49 were not supported by BCAs. On January 30, 2002, DOD issued a memorandum on
“Public-Private Partnerships for Depot Maintenance” establishing interim policy.
Specifically, it stated “the decision to enter into a PPP must be supported by a BCA
demonstrating that it is in the best interest of the government.” However, in March 2006,
AFMC issued a policy memorandum on AFMC PPP Guidance for Depot Maintenance
which only highly encouraged that BCAs be developed to evaluate PPP support strategy.
This memorandum expired in March 2007, and was eventually replaced in January 2009
by new AFMC guidance requiring the completion and approval of a BCA prior to the
performance of any PPP workload.

Partnership Agreements
Although DOD Instruction 4151.21 requires a BCA, 35 of the 40 PPPs had no BCA. For
35 PPPs, the Air Force did not provide a BCA or analysis of alternatives as to why it
established PPPs or why it used particular types of partnership agreements. In some
cases we found that PPPs were established in part to satisfy core requirements and to aid
the Air Force’s 50/50 posture. An Air Force 50/50 review team chartered by the Deputy
Assistant Secretary (Logistics), Deputy Assistant Secretary (Acquisition Integration), and
the Air Force Deputy Chief of Staff, Installations and Logistics, Directorate of
Maintenance conducted program portfolio reviews at all product centers and ALCs to
evaluate 50/50 reporting methods, as well as current and future decisions to use contract
or organic maintenance. The team briefed the Secretary of the Air Force on the results.


                                            7

On February 5, 2007, the Air Force issued a memorandum identifying maintenance
workloads that should be accomplished through PPPs to assist in preventing a future
breach to title 10 U.S.C. § 2466 (50/50). None of the PPPs we reviewed that were
entered into based on the memorandum were supported by a BCA. However, BCAs
should be completed prior to entering into PPPs and should consider costs, benefits, and
best use of public and private sector capabilities to ensure the best interests of the
Government.

The ALCs have essential national defense capabilities which the Air Force must maintain
organically. Selected C-17 weapon system depot-level maintenance and repair support
requirements shall be directed to these ALCs. These depot-level logistics requirements
are identified as core work and are covered under the C-17 direct sales partnering
agreement. The C-17 weapon system PPP, the largest reported revenue generator, was
not supported by a BCA when established. In addition, the C-17 sustainment support was
awarded under a PBL contract. ALC PPP workload funding for weapon systems
maintenance flows through the private industry partner. The Air Force’s decision to
award total system support responsibility was not based on a BCA, as documented in
DOD Office of Inspector General—Report No. D-2006-101, “Procurement Procedures
Used for C-17 Globemaster III Sustainment Partnership Total System Support,”
July 21, 2006. The report determined that:

       Air Force officials did not use an appropriate methodology for making the acquisition
       decision to procure contractor total system support for the C-17 aircraft. Specifically, the
       Air Force decision to award total system support responsibility was not based on a BCA.
       This occurred because senior Air Force officials directed the C-17 program office to
       focus efforts solely on a partnership with the contractor without fully considering
       additional sustainment strategies. As a result, the Air Force awarded an $871 million
       long-term contract (with a potential value of almost $5 billion) without proper and
       necessary support and did not make fully informed sustainment strategy decisions. These
       decisions will impact future options for sustaining the C-17 when aircraft production is
       complete. Furthermore, unless the Air Force develops and completes a thorough BCA, it
       will increase the risk of implementing for the life of the aircraft a sustainment strategy
       that does not achieve best value.

Unless the Air Force analyzes all alternatives before awarding a PBL contract, there is no
assurance the Air Force received best value under this partnership agreement.

The F-22 PPP supports Air Force core capability decisions ensuring compliance with
statutory requirements and supports source of repair assignment process decisions. One
of the partnering objectives is to ensure that depot maintenance workload designated as
“core” is reserved for performance by organic resources. To support this requirement, in
2005, the F-22 system program office directed an 8-month fact-finding effort to
determine whether to use a direct sales or workshare partnership agreement for the F-22
PPP. The team was a joint effort among the system program office, the ALCs, and the
private industry partners. The team concluded, as documented in the contractor-prepared
Depot Partnering whitepaper, that, compared with a workshare partnership agreement,
the direct sales partnership agreement would add an estimated 6 percent cost to the
annual depot-level reparable and heavy maintenance workload. The private industry



                                                    8

partners believed that more financial flexibility and accountability exists with a direct
sales partnership agreement, but the ALCs disagreed and preferred the workshare
partnership agreement. We requested the supporting data but they were unable to provide
the data. However, in 2005 the Aeronautical Systems Center requested Warner Robins
ALC to conduct an in-depth analysis of the Depot Partnering whitepaper submitted by the
private industry partner team, assessing the merits of a direct sales agreement over a
workshare approach to depot maintenance partnering for the F-22 sustainment. Warner
Robins ALC concluded, based on a qualitative assessment of the whitepaper, “that a
workshare partnering approach for sustainment of the F-22 system provides a substantial
cost savings to the program, and the taxpayer while allowing greater flexibility in
managing funds with equal accountability and responsibility in performance of organic
depot provided services.” Some of the issues cited in Warner Robins ALC’s analysis of
the whitepaper’s supporting data included that the required level of workshare oversight
or subcontract management was not consistently applied across all workloads; the impact
of software maintenance workload was not included in the analysis even though it has the
potential to be a significant portion of the depot workload; and contrary to the
whitepaper, a direct sales agreement would provide less flexibility in moving funds
obligated under a contract than a workshare partnership. Ultimately, the Air Force used
the direct sales partnership agreement.

The largest percentage of reported revenues generated from PPPs is associated with PBL
contracts. To ensure best value, BCAs or analyses of alternatives that address core
capability, 50/50 requirements, and type of PPP arrangement should occur early in the
acquisition cycle for new weapon systems and prior to award of sustainment contracts for
current weapon systems. These analyses should evaluate all alternatives and the resulting
decisions should be in the best interest of the Government.

Implementation Agreements
New AFMC guidance, issued in January 2009, requires BCAs for all implementation
agreements. Of the 61 implementation agreements we reviewed, 49 were not supported
by BCAs. Four of the implementation agreements were supported by adequate BCAs.
The remaining eight implementation agreements were supported by an analysis of
alternatives, called Depot Partnering Assessments (DPAs), which were developed jointly
by the prime contractor and the Air Force. The DPAs complied with BCA requirements
in Air Force Manual 65-510, “Business Case Analysis Procedures,” September 22, 2008.
Each of the DPAs compared non-recurring (startup) costs and recurring costs of
contractor maintenance, PPP maintenance (with direct sales agreement), and traditional
organic maintenance. The DPAs also considered other issues, such as core capability and
50/50 benefits for the Air Force. Although contractor support was almost always the
least costly option, all of the DPAs recommended the direct sale partnership approach,
often because of the core capability and 50/50 benefit to the Air Force. However, the
F-22 system support office could not provide any documentation used in the development
of the supporting data for the DPAs’ conclusions and recommendations. Also, one
scenario not analyzed in the DPAs was a workshare agreement partnership because the
decision to use direct sales was made at a higher level. Without a valid BCA or analysis




                                           9

of all alternatives, there is no assurance the Air Force is using the best PPP approach for
maintaining the F-22 weapon system.

Establishment of Baselines and Metrics
Of the 61 implementation agreements and associated documentation, 51 had not
established baselines, and 40 had not established PPP metrics. Baselines and metrics are
used to measure PPP benefits. A baseline serves as the starting point for measuring
progress in the quality or quantity of work or performance related to either a product or a
service. The baseline indicates a condition at a certain point in time; the result of work or
performance from that point onward shows whether conditions are improving, staying
even, or getting worse. Metrics measure the efficacy of the PPP for the Air Force and
AFMC. It is important to establish both baselines and metrics for the partnerships. For
example, in the partnering agreement for the Low Altitude Navigation and Targeting
Infrared for Night PPP, the baseline is established as the average repair time before the
PPP took place, and metrics are measured in the form of turnaround time in days.
Without baselines and metrics, the ALCs cannot measure the relative value of the PPP or
the improvement in performance. As noted in an April 2003 Government Accountability
Office (GAO) Report † that reviewed DOD participation in PPPs, “DOD has a limited
ability to measure the overall success of its partnering efforts because it has not yet
developed measurable goals for the expected outcomes of the effort, and the metrics that
it has developed sometimes will not provide the data needed to fully assess the
partnerships.” The January 2009 AFMC memorandum guidance requires BCAs to
establish the baselines of expected objectives and benefits resulting from the agreement
and to assist in the generation of metrics to be used to assess whether the PPP remains the
best viable solution. The principal Government partner in the business activities must
establish and track metrics to measure achievement of the objectives.

Oversight of Revenues and Expenses on PPP Workload
The ALCs were not adequately monitoring and reporting revenues and expenses on work
performed on PPPs. DOD Financial Management Regulation 7000.14-R, Volume 11B,
Chapter 11, requires depot maintenance activities to receive funding in advance and
recover all expenses of work performed.

We contacted Defense Contract Management Agency (DCMA) personnel to discuss
expenses for the C-17 direct sales PPP. The C-17 PPP is a direct sales partnering
agreement under a PBL contract. During the discussion, DCMA personnel stated that the
C-17 PPP had not yet recovered all of its workload expenses. Warner Robins ALC
contracting personnel subsequently confirmed this statement. As of July 2009, Warner
Robins ALC had not recovered from the private industry partner all costs of the C-17
PPP workload dating back to FY 2007. Depot personnel at Warner Robins ALC had
identified the issue and attempted to recover unfunded costs from the private industry
partner. When the two parties did not resolve discrepancies, the DCMA Administrative


†
 “Public-Private Partnerships Have Increased, but Long-Term Growth and Results Are Uncertain,” (Report
No. GAO-03-423), April 10, 2003.


                                                 10

Contracting Officer was brought into the discussions. The Administrative Contracting
Officer agreed with the Warner Robins ALC that the private industry partner owed the
ALC funding. According to a depot contracting officer at Warner Robins ALC,
unfunded expenses amounted to approximately $4.3 million for C-17 PPP workload from
FY 2007 through May 2009. Warner Robins ALC had resubmitted a request for
reimbursement to the private industry partner. As of October 19, 2009, the Warner
Robins ALC contracting officer reported that the amount of unreimbursed costs was
reduced by $1.2 million, and the contracting officer eventually expects to receive the
remaining unreimbursed costs. More timely communication between all Government
parties could have prevented this situation.

In the first quarterly report to AFMC headquarters for FY 2009, only Ogden ALC
reported actual expenses incurred. The report showed four PPPs with expenses higher
than revenues, indicating possible losses. We looked further into the larger two:
a $6.2 million dollar loss on the secondary power systems PPP, and a $5.1 million loss on
the F-22 heavy maintenance PPP. According to depot personnel, two factors account for
the loss on the secondary power systems PPP. First, the ALC was recording expenses for
indirect materials even though they were provided by the private industry partner at no
charge. The private industry partner was not billed for these costs, so there were no
revenues to offset the costs. Second, the depot adjusted overhead application rates across
all depot workload, generating additional costs for the PPP. Neither of the costs was an
actual PPP expense and neither should have been reported as such. For the F-22 heavy
maintenance PPP, the depot was uncertain of the reason for the reported loss, offering
various explanations. We eventually received a thorough explanation, but only after an
in-depth review by depot personnel as a result of our audit. The reported loss was caused
by overhead application rates. Had the ALC been monitoring the PPP more carefully,
they would have more accurately reported revenues and expenses in the quarterly report
to AFMC. Neither Oklahoma City ALC nor Warner Robins ALC reported expenses at
all. As a result, there was no assurance that the Air Force was recovering all costs related
to PPPs.

Air Force Actions
The Air Force recognized that improvements were needed in the PPP process and took
action to improve it. The AFMC Commander directed the standup of a centralized office
to improve and standardize the Air Force way of doing business. This decision came
after a series of GAO reports detailed deficiencies in DOD and Air Force business
practices. On January 31, 2008, the AFMC Commander approved the creation of the
AFMC Business Integration Office (BIO). Its mission is to shape AFMC’s best business
practices; provide insight into proposed and existing AFMC business PPPs; serve as the
single entry-point for industry and Government business partners; serve as the marketing
and business development office for AFMC; integrate business practices across AFMC
with counterparts in the Office of the Secretary of Defense and Air Force; and execute
AFMC governance of business partnerships, ensuring sufficiency, acceptability, and
standardization of practices.




                                            11

The AFMC BIO has discussed potential improvements in the PPP process with AFMC
leaders, ALC Commanders, and ALC Center Business Offices. The BIO has created
templates for PPP strategic partnering agreements and partnership agreements for the
ALCs. The ALCs now send PPP documentation, such as the overarching partnership
agreement, implementation agreements and BCAs to the BIO for review prior to
finalizing.

AFMC issued a policy memorandum on January 16, 2009, providing guidance to the
ALCs on depot maintenance PPPs. The memorandum standardizes PPP business
practices across the ALCs, mandating BCAs for all implementation agreements. The
BCAs are to establish baselines of expected benefits and assist in generation of metrics to
track benefits. As required by the AFMC policy memorandum, once PPPs are
established, program managers will capture quantifiable and measureable cost data
related to PPPs, such as direct labor, overhead, and general and administrative expenses.
The memorandum also requires that the ALCs report quarterly to the BIO on metrics for
all active PPPs and track PPP benefits. AFMC started collecting PPP metrics, including
revenues and expenses, in 2009 following the release of their PPP policy memo. The
policy memorandum is in effect until the issuance of both Air Force Instruction 63-101,
which was released in April 2009, and the AFMC Instruction supplement, which has not
yet been issued.

Conclusion
Although the Air Force has since taken action to improve the PPP process, it needs to do
more. The Air Force was inadequately supporting decisions to establish PPPs, as well as
decisions on the type of partnership arrangements used, and they were not adequately
monitoring the established PPPs. The Air Force is utilizing PPPs as a way to bring
maintenance workload back to the depots to satisfy public laws concerning core
capabilities and 50/50 regulations. Although BCAs are required, most PPPs have not
completed BCAs nor have they established metrics and baselines to measure results.
Without BCAs that analyze costs, benefits, and the best use of public and private sector
capabilities, the Air Force cannot be sure that these PPPs are the best value support
alternative and in the best interest of the Government. In these analyses, the Air Force
needs to consider the costs and benefits of workshare agreements versus direct sales
agreements when entering into PPPs. In addition, the Air Force needs to ensure that core
capability and 50/50 law issues are addressed early in both the weapon system’s
acquisition and the sustainment strategy planning. Also, the Air Force must require the
appropriate offices to complete BCAs and establish metrics and baselines to measure
performance. Without established baselines and metrics, the Air Force cannot track
whether the PPPs meet the planned objectives, obtain the expected benefits, and remain
the best viable solution. To ensure that all PPP expenses are recovered in a timely
manner, AFMC should reemphasize to the ALCs the requirement to report PPP revenues
and expenses in their quarterly reports to the AFMC. The AFMC must emphasize the
importance of timely, accurate, and consistent reporting of PPP performance.




                                            12

Management Comments on the Finding and Our
 Response
The Air Force provided the following comments for consideration.

F-22 Depot Partnering Assessment Documentation

The AFMC disagreed that the F-22 System Support Office could not provide
documentation supporting the conclusions and recommendations for the DPAs since the
office did demonstrate substantial rationale. In addition, they disagreed with the assertion
that the F-22 System Support Office did not adequately analyze a workshare agreement
scenario. The AFMC maintained that the Air Force and the Office of the Secretary of
Defense approved the use of the F-22 Acquisition strategy to use the direct sales
agreement approach, deeming it in the best interest of the Air Force at that point in time.

Our Response

We agree that the F-22 System Support Office provided documentation in the form of
detailed cost comparisons for the DPAs; however, they were unable to provide adequate
support for how they developed that data. We agree that the decision to use direct sales
was made at a higher level which precluded the need for an analysis of a workshare
agreement during the development of the DPAs. We reworded the appropriate section to
take into account the AFMC comments.

Recommendations, Management Comments, and Our
 Response
Revised and Redirected Recommendation
As a result of management comments, we revised and redirected Recommendation 1 as
follows.

1. We recommend the Assistant Secretary of the Air Force for Installations,
Environment and Logistics:

       a.	 Ensure Air Force policy requires preparation of a business case analysis
           prior to approval of a public-private partnership and as early in the
           acquisition cycle as possible.

       b.	 Ensure Air Force policy requires a business case analysis to provide
           sufficient detail, including an analysis of costs/benefits and 50/50 and core
           workload requirements, that demonstrates the agreement is in the
           Government’s best interest.




                                            13

Management Comments
The Deputy Chief of Staff for Logistics, Installations and Mission Support, U.S. Air
Force in coordination with the office of the Assistant Secretary of the Air Force for
Installations, Environment and Logistics agreed with the intent of our recommendation
but recommended that we revise and redirect the recommendation to the Assistant
Secretary of the Air Force for Installations, Environment and Logistics. In addition, the
Deputy Chief of Staff stated that Air Force Instruction 63-101, “Acquisition and
Sustainment Life Cycle Management,” will be updated to incorporate language from
AFMC guidance that requires BCAs for all PPPs and implementation of the revised
Recommendation 1 actions. The estimated completion date for update to Air Force
Instruction 63-101 is July 2010.

Our Response

We agree with the redirection of and revision to the recommendation. Establishing Air
Force policy requiring BCAs with sufficient detail to include analysis of cost/benefits,
and 50/50 and core workload requirements as early in the acquisition cycle as possible
should improve the PPP process to ensure the Government’s best interest. In addition,
incorporating the revised recommendation into Air Force Instruction 63-101,
“Acquisition and Sustainment Life Cycle Management,” will define roles and
responsibilities to ensure adequate BCAs are prepared for PPPs. The policy will also
address the impact on 50/50 and core requirements. This revised recommendation meets
the intent of our original recommendation. No further comments are required.

2. 	 We recommend that for each public-private partnership the Commander, Air
     Force Materiel Command:

      a. Verify that the Air Logistics Centers or weapon systems program
managers have completed a business case analysis commensurate with expected
revenues.

       b.	 Verify that baselines and metrics have been established.

      c. Require Air Logistics Centers to report revenues and expenses quarterly
and monitor performance to ensure the recovery of workload expenses.

       d. Verify that the private industry partner pays the Warner Robins Air
Logistics Center for the remaining $3.1 million in C-17 unfunded work expenses for
FY 2007 through May 2009.

Management Comments
The Deputy Chief of Staff for Logistics, Installations and Mission Support, U.S. Air
Force in coordination with AFMC agreed with the recommendation. AFMC has
established new procedures and guidance to ensure completion of BCAs and



                                            14

establishment of baselines and metrics prior to PPP approval. It will identify metrics in
the BCAs for all new PPPs. AFMC will continue to update and improve existing policies
and procedures to report PPP revenues and expenses quarterly. It will implement a
review process to monitor performance and ensure recovery of workload expenses.

Our Response
Air Force comments to the draft recommendations were fully responsive. No further
comments are required.




                                           15

Appendix. Scope and Methodology
We conducted this performance audit from January 2009 through February 2010, in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our finding and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We reviewed PPPs at the three Air Force ALCs: Hill AFB, Utah; Tinker AFB,
Oklahoma; and Robins AFB, Georgia. We reviewed 40 partnerships as well as their 61
implementation agreements open during FY 2009. At each ALC we reviewed the
partnering agreements, implementation agreements, and other available documentation to
determine whether BCAs had been completed and whether baselines and metrics had
been established to track partnership performance.

We contacted officials at the Office of the Under Secretary of Defense for Logistics and
Materiel Readiness and the U.S. Air Force (Logistics, Installation and Mission Support)
to obtain an overview of PPPs and determine their oversight roles. We visited AFMC to
understand its role in the PPP process, oversight, and the latest policy guidance. We met
with personnel at all three ALCs. We met with the C-17 Program Office. In addition, we
contacted the DCMA C-17 Administrative Contract Officer about responsibilities for
managing C-17 PPP arrangements entered into by Air Force depots. We met with
personnel from the F-22 System Support Office, Ogden, Utah to discuss DPAs, as well as
the advantages and disadvantages of workshare versus direct sale agreements.

To perform the audit we reviewed Federal, DOD, and Air Force guidance that provides
direction and procedures on the management of PPPs.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Prior Coverage
During the last 6 years, the GAO, and the Army Audit Agency have issued three reports
discussing PPPs. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted Army reports can be accessed from .mil and gao.gov
domains over the Internet at https://www.aaa.army.mil/.

GAO
GAO Report No. 08-902R, “Depot Maintenance: DOD’s Report to Congress on Its
Public-Private Partnerships at Its Center of Industrial and Technical Excellence (CITEs)
Is Not Complete and Additional Information Would Be Useful,” July 1, 2008

GAO Report No. 03-423, “Public-Private Partnerships Have Increased, but Long-Term
Growth and Results Are Uncertain,” April 10, 2003


                                           16

ARMY
Army Audit Agency report No. A-2008-0058-ALM, “Benefits of Public-Private
Partnerships,” Deputy Chief of Staff, G-4, February 7, 2008




                                       17

Office of the Deputy Chief of Staff for Logistics, Installations
and Mission Support, U.S. Air Force Comments


                                   DEPARTMENT OF THE AIR FORCE
                               HEADQUARTERS UNITED STATES A IR FORCE
                                         WASHINGTON, DC




       MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL. READINESS. OPERATrONS
                         AND SUPPORT DIRECTORATE

       FROM: HQ USAF/A4n
                 1030 Air Force Pentagon
                 Washington, DC 20330-1030

       SUBJECT: Public-Private Partnerships at Air Force Mwntenance Depots (Project No 02009-
                   DOOOLO-OI10.000) (reference your memo     1~   feb 10)

              Per your request, comments to the subject draft report are provided at Attachment 1.
       These comments were coordinated with the Oeputy Chief of Installations, Environmental and
       Logistics and Vice Commander Air Force Materiel Command.

              Our POC is Leo Sears, AF/A4LM. OSN 425-1662.




                                                       Lieutenant General. USAF
                                                       DCSlLogistics. Installations & Mission Support

       1 Attachment
       1. Air Force Comments to Project No 02009-
       0000LO-OI1O.000

       cc:
       SAFIIEL
       HQAFMc/A4




                                                     18

                                       ATf ACHMENf 1

   Air Force Comments to Draft "Public-Private P artners hips at Air Force Maintenance
                   Depots" (Project No D2009-DOOOLD-OI10.000)


DODIG Recommendation # 1:

Concur with intent with the following change in wording recommended:

1. We recommend the Assistant Secretary of the Air Force for Installations, Environment and
Logistics:

a) Ensure AF level policy is in place that· requires a Business Case Analysis (SCA) is prepared
prior to approval of a Public-Private Partnership (PPP) as early in the acquisition cycle as
possible.

b) Ensure AF level policy is in place requiring BCAs provide sufficient detail that demonstrates
the agreement is in the best interest of the Govenunent. As a minimum, the BCA should include
the analysis of costsibenefits, and 50/50 and Core workload requirements."

AFI 63-101 is .being updated to incorporate language from AFMClCC Guidance Memo, "AfMC
Public-Private Partnership (PPP) Guidance for Depot Maintenance", dated 16 Jan 2009: The
new languagc will require BCAs for PPPs. It will require the SCA to stale how the PPP
contributes to the achievement of its objectives, reasons why the PPP is in the best interests of
the government, why the particular type ofPPP was selected (e.g., work share versus direct sale);
the metrics that will be used to evaluate the effectiveness of each Solution and the perfonnance
expectations for the PPP expressed in tenus of the proposed metrics. The BCA will also address
the impact the PPP will have on AF Core and 50/50 posture. Estimated completion date of
update to 63-10\ is July 2010."

DODIG Recommendation #2:

Concur with DODIG's second recommendation with the f,?llowing comments:

2a. New procedures and guidance that ensures the completion of a Business Case Analysis
(SCA) prior to the approval ofa PPP were in place prior to the initiation of the DoDIIG audit as
published in the 16 Jan 2009 AFMC PPP Guidance Memo. AFMC is aggressively working
towards compliance for all PPPs.

2b. The 16 Jan 2009 AFMC PPP Guidance Memo also requires all PPPs to establish baselines
and metrics that support the PPP goals prior to PPP approval. AFMC is aggressively working
towards compliance for all PPPs. Metrics for new PPPs will be identified in the respective BCA.




                                                 19

                                                                                                   .




 2c. AFMC will update and implement policy and procedures requiring Air Logistics Centers to
 report quarterly PPP revenues and expenses. In addition, AFMC will implement a review
 process that monitors perlonnance to ensure the recovery of workload expenses for PPPs.

 2d. AFMC will aggressively assist and monitor the recovery of $3 .1 million in C·17 unfur1ded
 work expenses for the Warner Robins Air Logistics Center.

 Other Report Comments:

 Disagree with the reference that the F·22 system support office could not provide documentation
 supporting the Depot Partnering Assessments (DP A) conclusions and recommendations since the
 DPAs have substantial quantitative and qualitative rationale for their activate/not activate
 recommendations.                                                         .

  Disagree with the assertion that the F·22 SSO did not adequately analyze a work-share
. agreement scenario. nie F-22 Acquisition Strategy was approved by the AF and OSD and the F·
  22 SPD made the decision that direct sales was in the best interest of the program and the Air
  Force at the point in time.




                                                 20

